V
4

>

APPENDICES

::
:::
vv

w

n
t<

APPENDIX A

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION

FILED

Jan 08, 2020
DEBORAH S. HUNT, Clerk

No. 19-1502
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LAWRENCE L. COLTON,

)
)
)
)

Petitioner-Appellant,
v.

)
)
)

J.A. TERRIS, WARDEN,

)
)
)

Respondent-Appellee.

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

ORDER

Before: SUHRHEINRICH, BATCHELDER, and NALBANDIAN, Circuit Judges.

Lawrence L. Colton, a pro se federal prisoner, appeals district court orders denying his
habeas corpus petition filed under 28 U.S.C. § 2241 and denying his motion for reconsideration.
This case has been referred to a panel of the court that, upon examination, unanimously agrees that
oral argument is not needed. See Fed. R. App. P. 34(a).
In 2012, a jury in the United States District Court for the District of Minnesota convicted
Colton of conspiring to distribute controlled substances, in violation of 21 U.S.C. §§ 841(a)(1) and
846; and distribution of a controlled substance, in violation of 21 U.S.C. § 841(a)(1) and 18 U.S.C.
§ 2. The district court sentenced Colton to 300 months of imprisonment. Colton’s convictions
and sentence were affirmed on direct appeal. See United States v. Colton, 742 F.3d 345 (8th Cir.
2014) (per curiam). Thereafter, Colton’s motion to vacate his sentence under 28 U.S.C. § 2255
was denied. See United States v. Colton, No. 15-1226, 2015 WL 3968750 (D. Minn. June 30,

\

No. 19-1502
-22015). The Eighth Circuit Court of Appeals denied Colton’s application for a certificate of
appealability. Colton v. United States, No. 15-2752 (8th Cir. Dec. 8, 2015).
In October 2018, Colton filed a § 2241 petition in the Eastern District of Michigan, arguing
that the district court in Minnesota erred when it denied his § 2255 motion because it failed to
apply the applicable legal standards set forth in § 2255(a) and (b), thereby denying his right to
“notice and [a] hearing” in violation of the Fifth Amendment’s Due Process Clause and improperly
denying his right to freedom from incarceration. The district court summarily denied Colton’s
habeas petition, concluding that § 2241 was not the proper vehicle for him to challenge his
convictions and sentence, he failed to meet his burden to establish that § 2255 was inadequate or
ineffective to challenge his convictions and sentence, and he could not use his § 2241 habeas
petition as a means to appeal the denial of his § 2255 motion.
Colton moved for reconsideration, arguing that the district court erred when it denied his
§ 2241 habeas petition because it did not provide a reasoned opinion explaining the legal basis for
the denial of his habeas petition. The district court denied Colton’s motion for reconsideration,
noting that it had provided a thorough reason for its ruling and that Colton had merely rehashed
arguments that it had already rejected.
On appeal, Colton argues that the district court eired when it denied his motion for
reconsideration because it failed to apply the “clear error of law” and “interest ofjustice” standards
in determining whether he was entitled to reconsideration of the denial of his § 2241 habeas
petition and failed to apply the “deprivation of liberty without due process of law” standard in
determining whether he was entitled to habeas corpus relief.
We review de novo a district court’s denial of a § 2241 habeas petition. Wooten v. Cauley,
677 F.3d 303, 306 (6th Cir. 2012); Charles v. Chandler, 180 F.3d 753, 755 (6th Cir. 1999) (per
curiam). A federal prisoner may use § 2241 to challenge the legality of his detention—as opposed
to the execution of his sentence—only if his remedy under § 2255 is inadequate or ineffective.
Wooten, 611 F.3d at 306-07. To demonstrate inadequacy or ineffectiveness, the petitioner
ordinarily must establish that he is actually innocent of the offense. Id. at 307. Actual innocence
is defined as “factual innocence, not mere legal insufficiency.” Souterv. Jones, 395 F.3d 577,590

No. 19-1502
-3(6th Cir. 2005) (quoting Bousley v. United States, 523 U.S. 614, 623 (1998)). And in limited
circumstances outlined in Hill v. Masters, a federal prisoner may use § 2241 to challenge a
“misapplied sentence.” 836 F.3d 591, 595 (6th Cir. 2016).
Colton does not argue that he is actually innocent of the charged offenses. Rather, he
argues that the Minnesota district court failed to apply the proper legal standards under 28 U.S.C.
§ 2255(a) and (b) when it denied the merits of his § 2255 motion and failed to grant him notice
and a hearing. These contentions do not fall within either of the “savings clause” categories of
challenges that we recognize. Id. at 594-95.
The district court also properly denied' Colton’s motion for reconsideration. Local Civil
Rule 7.1(h) (previously Rule 7.1(g)(3)) of the Local Rules of the United States District Court for
the Eastern District of Michigan provides that:
Generally, and without restricting the court’s discretion, the court will not grant
motions for rehearing or reconsideration that merely present the same issues ruled
upon by the court, either expressly or by reasonable implication. The movant must
not only demonstrate a palpable defect by which the court and the parties and other
persons entitled to be heard on the motion have been misled but also show that
correcting the defect will result in a different disposition of the case.
E.D. Mich. R. 7.1(h)(3). Colton’s argument that the district court failed to provide a reasoned
legal analysis for denying his § 2241 habeas petition was conclusory and inaccurate.
Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:18-cv-132S6'GAD-SDD ECF No. 5 filed 03/07/19 PagelD.16 Page 1 of 6
APPENDIX B

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Lawrence L. Colton
Petitioner,

Case No. 18-cv-13296

v.

United States District Court Judge
Gershwin A: Drain •

J.A. Terris
Respondent.
OPINION AND ORDER SUMMARILY DENYING THE PETITION FOR
WRIT OF HABEAS CORPUS BROUGHT PURSUANT TO 28 U.S.C. $ 2241
AND GRANTING LEAVE TO APPEAL IN FORMA PA UPERIS
L Introduction
Lawrence Lalonde Colton, (“Petitioner”), incarcerated at the Federal
Correctional Institution in Milan, Michigan, filed a pro se petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2241, in which he challenges his conviction and
sentence out of the United States District Court for Minnesota for conspiracy to
distribute various controlled substances, in violation of 21 U.S.C. §§ 841(a)(1) and
846, and three counts of distribution of a controlled substance, in violation of 21
U.S.C. § 841(a)(1) and 18 U.S.C, § 2.
For the reasons stated below,, the. petition for writ of. habeas, corpus, filed ,,
pursuant to 28 U.S.C. § 2241 is SUMMARILY DENIED, and Petitioner’s
applicationfor leave to appeal in forma pauperisis GRANTED.
1

'•-'GAC i.-0-lVJ.0i3U-'CMJ-Oi;LI

CUT l\U. O

iiiCU. VJIV I U.Z

rixybiu.i /

i-'isye / ui

d

n. Factual Background
Petitioner was convicted following a jury trial in the United States District
Court for the District of Minnesota. Petitioner’s conviction and.sentence was - .
affirmed on appeal. United States v. Colton, 742 F. 3d 345 (8th Cir. 2014). Petitioner
filed a post-conviction motion to vacate sentence pursuant to 28 U.S.C. § 2255,
which was denied. United States v. Colton, No. 15-1226, 2015 WL 3968750 (D.
Minn. June 30, 2015).
Petitioner has filed a petition for writ of habeas corpus pursuant to 28 U.S.C.
§ 2241. Petitioner claims that he was ..denied, due.process when the district,court
judge in the United States District Court for the District of Minnesota denied his
motion to vacate sentence by failing to apply the applicable standard contained in 28
U.S.C. § 2255 for reviewing and adjudicating motions to vacate sentence and for
failing to conduct an evidentiary hearing.
m. Discussion
A petition for a writ of habeas corpus must set forth facts that give rise to a
cause of action under federal law or it may summarily be dismissed. See Perez v.
Hemingway, 157 F. Supp. 2d 790, 796 (E.D. Mich. 2001). Federal courts can also
dismiss a habeas petition that is legally insufficient on its face. McFarland v. Scott,
512 U.S. 849,856 (1994). A federal district court is authorized to summarily dismiss
a habeas corpus petition if it plainly appears from the face of the petition or the
2

b

■w<S.S>C! i.iC'vV-iOiSO-UftU-OUU

nur IVU. 3

Ilieu UO/U/ZXS

r&yeiL^.io

rciye o ui a

exhibits that are attached to it that the petitioner is not entitled to federal habeas
relief. See Carson v. Burke, 178 F.3d 434, 436 (6th Cir. 1999); Rules Governing §
.2254 Cases, Rule A, 28 U*SvC,- folh § •2254^ The. Sixths Circuit" stated-that-they *
“disapprove the practice of issuing a show cause order [to the respondent] until after
‘ the District Court first has made a careful examination of the petition.” Allen v.
Perini, 424 F.3d 134,140 (6th Cir. 1970). A district court shall screen out any habeas
corpus petition which lacks merit on its face. Id. at 141. Courts have used Rule 4 of
the habeas corpus rules to summarily dismiss facially insufficient habeas petitions
- brought under § 2241. See e~g. Perez, 157 F. Supp. 2d at 796 (additional citations
omitted). Because the current petition is facially insufficient to grant habeas relief,
the petition shall be summarily dismissed. Id.
A federal prisoner may challenge his or her conviction or the imposition of a
sentence under 28 U.S.C. § 2241 only if he or she can demonstrate that the post­
conviction remedy afforded under § 2255 is inadequate or ineffective to test the
legality of the defendant’s detention. See Wooten v. Cauley, 677 F.3d 303, 307 (6th
Cir. 2012). A petition for writ of habeas corpus brought under 28 U.S.C. § 2241
cannot be used as an additional, alternative, or supplemental remedy to the motion
to vacate, set aside, or correct the sentence. See Charles v. Chandler, 180 F.3d 75.3,
758 (6th Cir. 1999). A habeas petitioner has the burden of demonstrating that the
remedy afforded under § 2255 is inadequate or ineffective and the mere fact that a
3

.

oaitr. <£., lO-LV-iOilSC-L-MU-OUU

iiieo UJ/:J//iy

pagenj.iy

page 4 or e

prior motion to vacate sentence may have proven unsuccessful does not necessarily
meet that burden. In Re Gregory, 181 F. 3d 713, 714 (6th Cir. 1999). The remedy
afforded under § 2255 is not considered inadequate ©FTneffeetive^simply* because §
2255 relief was denied, because the petitioner was procedurally barred from
pursuing relief under § 2255, or because the petitioner was denied permission to file
a second or successive motion to vacate sentence. Wooten v. Cauley, 677 F,3d at
303.

Petitioner cannot file a petition for writ of habeas corpus under 28 U.S.C. §
2241 to challenge his conviction and-sentence*- The remedy provided-for under §
2255 is not inadequate or ineffective even where a motion to vacate or set aside
sentence may have been erroneously or incorrectly denied. Wallace v. Willingham,
351 F.2d 299, 300 (10th Cir. 1965); Stirone v. Markley, 345 F.2d 473, 474 (7th Cir.
1965). Petitioner was given an opportunity to raise his claims on post-conviction
review. “The mere fact that” the judge in the District of Minnesota has “not found
[petitioner’s] arguments persuasive is not enough to satisfy his burden of showing
that his remedy under § 2255 is inadequate or ineffective.” See. Brewster, v. Perez,
36 F. App’x 781,783 (6th Cir. 2002). Likewise, “the district court’s denial of § 2255
relief on the merits without conducting an evidentiary hearing, standing alone, is
insufficient to establish that his § 2255 remedy is inadequate or ineffective.” Genoa
v. Hemingway, 14 F. App’x 300, 302 (6th Cir. 2001).
4

Case 2:18-cv-13296-GAD-SDD EO No. b T'ileo Ud/U //IB

h-'ageiu.zu

-age o or c

Habeas corpus relief is unavailable to a federal prisoner like Petitioner whose
claims have already been ruled upon adversely in a prior proceeding. See e.g.
Sandies v. Scott; 26 F. Supp: *2d4355rB56-57-(NyD. Ga. 4998)-.~Petitk)ner’s postconviction claims were already decided adversely against Petitioner in his prior
motion to vacate sentence; he cannot raise these claims again in a § 2241 habeas
petition. See Casey v. Hemingway, 42 F. App’x 674, 676—77 (6th Cir. 2002). In
addition, a petition for writ of habeas corpus under § 2241 is not the proper vehicle
for appealing the denial of a prior motion to vacate sentence, as petitioner appears
-to be doing. See e.g. Hurwitz v.-Gunjaj11 F. App’x 349* 3-50 (4th Cir. 2Q0i-)v The
fact that another federal judge has already rejected petitioner’s claims does not
permit this Court to act as an appellate court with respect to that ruling. See e.g. Frye
v. Clark, 444 F.2d 536, 537 (5th Cir. 1971).
IV. Conclusion
IT IS HEREBY ORDERED that the Petition for Writ of Habeas Corpus
brought pursuant to 28 U.S.C. § 2241 is SUMMARILY DENIED. Because a
certificate of appealability is not needed to. appeal the denial of a habeas petition
filed under § 2241, Witham v. United States, 355 F.3d 501, 504 (6th Cir. 2004),
Petitioner need not apply for one with this Court or with the Sixth Circuit before
filing an appeal from the denial of his habeas petition. The Court will grant petitioner

5

nscru w/uniw1

Oab'b ^,iO-vV"i.Oi5U*,wr-.u-ol'U'

aye i i-» . u —

U.'^

V

W 1

\J

*- -

leave to appeal in forma pauperis because any appeal would be taken in good faith.
•■if

See Foster v. Ludwick, 208 F. Supp. 2d 750, 765 (E.D. Mich. 2002).
IT IS SO ORDERED.

Dated:

March 7, 2019
s/Gershwin A. Drain
Hon. Gershwin A. Drain
United States District Court Judge

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of record on
March 7, 2019, by electronic and/or ordinary mail.
/s/ Teresa McGovern
Case Manager

6

APPENDIX C
*

■»

Case No. 19-1502
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
LAWRENCE L. COLTON
Petitioner - Appellant
v.
J. A. TERRIS, Warden,
Respondent - Appellee

BEFORE: SUHRHEINRICH, BATCHELDER and NALBANDIAN, Circuit Judges.
Upon consideration of the appellant’s motion to stay the mandate in order to
prepare and file a petition for writ of certiorari,
It is ORDERED that the motion be and it hereby is DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk
Issued: January 27, 2020

•APPENDIX D

1 *

No. 19-1502

FILED

. y

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Mar 02, 2020
DEBORAH S. HUNT, Clerk

=J)
LAWRENCE L. COLTON,

)
)

Petitioner-Appellant,

)
)

v.

)
)

J. A. TERRIS, Warden,

)

ORDER

)

Respondent-Appellee.

)
)
)
)

Before: SUHRHEINRICH, BATCHELDER, and NALBANDIAN, Circuit Judges.
:r

V.
Lawrence L. Colton, a pro se federal prisoner, petitions the court to rehear its January 8,
2020, order affirming district court orders denying his 28 U.S.C. § 2241 habeas corpus petition
and his motion for reconsideration.
Upon review, we conclude that we did not misapprehend or overlook any point of law or
fact when we issued our prior order. See Fed. R. App. P. 40(a). Accordingly, we DENY
Colton’s petition for rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

««

